Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

August 11, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

AMG Capital Management, LLC v. Federal Trade Commission, No. 19-508;
Federal Trade Commission v. Credit Bureau Center, LLC, No. 19-825

Dear Mr. Harris:
We represent Credit Bureau Center LLC and Michael Brown (collectively, “Credit
Bureau Center”) in the above-referenced matter (Respondents in No. 19-825; Petitioners in No.
19-508).
In accordance with Rule 37.3(a) of the Rules of the Supreme Court of the United States,
Credit Bureau Center hereby grants blanket consent to the filing of amicus curiae briefs in
support of either or neither party in this matter.
Sincerely,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
HOGAN LOVELLS US LLP
555 Thirteenth St., NW
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Credit Bureau Center, LLC
and Michael Brown
cc:

Alden F. Abbott
Jeffrey A. Lamken
Jeffrey B. Wall

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo
Warsaw Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
Legal Services Center: Berlin. For more information see www.hoganlovells.com

